            Smithsonian Institution
            Office of the Inspector General


           In Brief                    Use of Social Media
                                       Report Number A-11-01, September 28, 2011

                                                                                                                                 


Why We Did This Audit                  What We Found

We conducted this audit to assess      The Smithsonian generally used social media responsibly. The Smithsonian
whether the Institution’s plans for    content in the nearly 1,600 Smithsonian Facebook and Twitter practitioner posts
and current uses of social media       we reviewed advanced the Institution’s mission to increase and diffuse
productively and responsibly           knowledge. Smithsonian practitioners we interviewed regularly reviewed social
advance the Smithsonian mission        media for inappropriate user content, but did not find many instances of such
to increase and diffuse knowledge,     content. Likewise, we found no user content that we believed was inappropriate
including whether the Institution      in our random sample of 14 Smithsonian Facebook pages.
provides adequate oversight and
sufficient accountability.             However, contrary to best practices, 25 of the 30 Smithsonian pages we reviewed
                                       in a separate sample did not contain a comment policy.
What We Recommended
                                       At the conclusion of our audit work, the Smithsonian issued a social media
To improve oversight of and            policy. If followed as written, it will reinforce practitioners’ responsible use of all
accountability for the Institution’s   social media. The policy incorporates social media best practices, setting forth
social media use, we                   expectations for how to use social media responsibly, including requiring
recommended that the                   comment policies on Smithsonian social media accounts.
Smithsonian (1) develop a
performance measurement                The Secretary and his direct reports (“Management”) have not provided adequate
system to evaluate whether the         oversight of the Institution’s efforts to broaden access using social media, limiting
Institution as a whole has met its     accountability. The Under Secretaries have not yet established a system to
goal of broadening access using        measure Institution-wide social media performance, even though the
social media; (2) appoint a pan-       Smithsonian’s Strategic Plan calls for Management to do so.
Institutional Web and new media
leader, as called for in the           The Under Secretaries have not established a system to measure social media
Smithsonian’s Web and New              performance at all units because they believed that the Smithsonian had not
Media Strategy; (3) update the         identified a meaningful social media performance indicator. Recently, however,
Smithsonian Website and Social         Management selected performance indicators that they plan to begin tracking at
Network Registry with social           the start of FY 2012.
media accounts we identified; and
(4) request units to close inactive    The Secretary has not appointed a Web and new media leader, as called for by the
accounts we identified, in             Institution’s Web and New Media Strategy, to help oversee the Institution’s plans
accordance with the Institution’s      for and strategic use of social media.
new social media policy.
                                       The Smithsonian did not know the full extent of its social media presence, further
Management generally concurred         limiting Institutional accountability. The Smithsonian’s central directory of social
with our findings and                  media accounts was missing at least 10 percent of Smithsonian-managed accounts
recommendations.                       and lacked contact information for almost 20 percent of the registered accounts.

                                       We found that the Smithsonian could help practitioners use social media more
                                       productively by improving information-sharing across the Institution. In August
                                       2011, the Smithsonian established an internal information-sharing hub for its
                                       social media practitioners.



                                       For additional information or a copy of the full report, contact the Office of the
                                       Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
          Smithsonian Institution

           Office of the Inspector General



  Date    September 28, 2011

    To    G. Wayne Clough, Secretary
          Evelyn Lieberman, Director of Communications and External Affairs
          Anne Van Camp, Director, Smithsonian Institution Archives

     cc   Claudine Brown, Assistant Secretary for Education and Access
          Richard Kurin, Under Secretary for History, Art, and Culture
          Judith E. Leonard, General Counsel
          Albert Horvath, Under Secretary for Finance and Administration and Chief Financial
           Officer
          Eva J. Pel!, Under Secretary for Science
          Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary Support
          George Van Dyke, Acting Chief Information Officer

 From     ~. ~~let ~'t;':' Inspector General
Subject   Audit of Use of Social Media, Number A-II-OI

          This report presents the results of our audit of social medial use at the Smithsonian. Our
          objectives were to assess whether the Institution's plans for and current uses of social
          media productively and responsibly advance the Smithsonian mission to increase and
          diffuse knowledge, including whether the Institution provides adequate oversight and
          sufficient accountability.

          We initiated this audit in November 2010 to address the risk posed by users posting
          inappropriate content on Smithsonian accounts. We also initiated this audit because the
                                       2
          Smithsonian's strategic plan emphasizes the importance of these tools in advancing the
          Institution's mission, and we were concerned that the Smithsonian ensure adequate
          oversight of and accountability for social media use.
          In its Strategic Plan, the Smithsonian committed to using social media and other new
          media tools to broaden access to the Institution's programs and outreach - one of seven
          strategic priorities. The Strategic Plan's other priorities include measuring performance
          and enabling the mission through organizational excelJence. The Strategic Plan
          characterizes a performance measurement system as gathering data, monitoring progress,
          and evaluating results, as captured in a set of performance indicators directly linked to
          what the Smithsonian wants to accomplish. The Strategic Plan also calls for a
          commitment to excellence and accountability and for the Institution to account for and
          control its processes, improve performance, and support ongoing learning.

          I Social media are defined as any form of online publication or presence that allows end-users to engage in

          multi-directional conversations in or around the content on a website. OnlineMatters.com. Glossary of
          Online Marketing Terms. (2011). Retrieved 4125/2011 from http://www.onlinematters.com/glossary.htm.
          , Smithsonian Institution Strategic Plan FiscaJ Years 2010 - 2015, Inspiring Generations Through Knowledge
          and Discovery.
           MRC 524
           PO Box 37012
           Washington DC 20013·0712
           202 .633.7050 Telephone
           202.633.7079 Fax
To accomplish our objectives, we conducted extensive interviews of Smithsonian
management and staff and surveyed the Institution’s social media practitioner
community. We focused our audit on third-party social media sites3 because they allow
anyone to create an account and post information to a global audience instantaneously.
We tested the completeness of the Smithsonian’s Website and Social Network Registry4 by
searching the Internet for Smithsonian-managed social media accounts not already listed
on the registry. We identified social media best practices from external organizations and
tested a sample of Smithsonian Facebook and Twitter accounts against those practices.

We include a detailed description of our scope and methodology in Appendix A.

RESULTS IN BRIEF
The Smithsonian generally used social media responsibly. The Smithsonian content in the
nearly 1,600 Smithsonian Facebook and Twitter practitioner posts we reviewed advanced
the Institution’s mission to increase and diffuse knowledge. Smithsonian practitioners we
interviewed regularly reviewed social media for inappropriate user content, but did not
find many instances of such content. Likewise, we found no user content that we believed
was inappropriate in our random sample of 14 Smithsonian Facebook pages.

However, contrary to best practices, 25 of the 30 Smithsonian pages we reviewed in a
separate sample did not contain a comment policy.

At the conclusion of our audit work, the Smithsonian issued a social media policy. If
followed as written, it will reinforce practitioners’ responsible use of all social media. The
policy incorporates social media best practices, setting forth expectations for how to use
social media responsibly, including requiring comment policies on Smithsonian social
media accounts.

The Secretary and his direct reports (“Management”) have not provided adequate
oversight of the Institution’s efforts to broaden access using social media, limiting
accountability. The Under Secretaries have not yet established a system to measure
Institution-wide social media performance, even though the Smithsonian’s Strategic Plan
calls for Management to measure performance systematically. Given the Institution’s
decentralized organizational structure, methodically measuring pan-Institutional
performance entails having these systems established within each unit. Yet, the Under
Secretaries have not yet required unit directors to establish such systems.

The Under Secretaries have not established a system to measure social media performance
at all units because they believed that the Smithsonian had not identified a meaningful
social media performance indicator. Recently, however, Management selected
performance indicators that they plan to begin tracking at the start of FY 2012.

The Secretary has not appointed a Web and new media leader, as called for by the
Institution’s Web and New Media Strategy, to help oversee the Institution’s plans for and
strategic use of social media.

3
  Third-party social media sites are sites (e.g., Facebook, Twitter), which are hosted outside of the
Smithsonian’s computer servers.
4
  The registry is a central directory of the Institution’s websites and social media accounts. We used the
Website and Social Network Registry as of February 14, 2011.

                                                       2
The Smithsonian did not know the full extent of its social media presence, further
limiting Institutional accountability. The Smithsonian’s central directory of social media
accounts was missing at least 10 percent of Smithsonian-managed accounts and lacked
contact information for almost 20 percent of the registered accounts. Without a complete
registry, Management could not systematically measure the performance of or otherwise
ensure adequate oversight of all the Institution’s social media accounts. The Smithsonian
lacked a complete registry because at the time of our testing, Management did not require
social media practitioners to report new accounts, as it now does under the just-issued
social media policy.

We made four recommendations to improve oversight of and accountability for the
Institution’s social media use, which Management generally agreed to implement.

We also found that the Smithsonian could help practitioners use social media more
productively by improving information-sharing across the Institution. Although
Smithsonian social media practitioners we surveyed were generally satisfied with the
Institution’s current methods of sharing information, at the time of our survey, 72
percent of respondents would have found an information-sharing hub dedicated to social
media useful. At the conclusion of our audit work, the Smithsonian established an
internal information-sharing hub for its social media practitioners. We encourage the
Smithsonian to continue to help provide ways for social media practitioners to find the
information they need more easily.

Because of the evolving nature of social media use at the Smithsonian, the initiation of the
audit produced some uneasiness among senior managers. Though we were able to
complete the audit and satisfy our objectives, we wish to emphasize that we chose the
topic based upon its strategic significance to the Smithsonian and conducted our work
consistent with our authority and mission under the Inspector General Act.

BACKGROUND
Use of Third-Party Social Media at the Smithsonian

The Institution had 342 social media                Figure 1. Most Used Social Media Sites at the
accounts recorded in the Smithsonian                 Smithsonian
                                     5
Website and Social Network Registry.
Although the Smithsonian uses a variety
of social media sites to reach its                                    Other
                                                                      social         Facebook
audiences, the four most commonly                                     media            23%
used ones were Facebook, Twitter,                                      (e.g.,
Flickr, and YouTube, which represented                                blogs)
                                                                       33%
229 (or 67 percent) of the total                                                         Twitter
accounts. See Figure 1 for a breakdown                                                    19%
of the most used social media sites.                               YouTube      Flickr
                                                                     12%        13%




5
 This number is based on the registry as of February 14, 2011. However, as noted later in the report, the
registry did not contain all of the Smithsonian-managed social media accounts. Furthermore, the number
of registered accounts will continue to change, as units establish new accounts or close abandoned accounts.

                                                     3
Using these sites, the Smithsonian posts a wide range of content, such as notifications of
museum events, links to videos and photos, pictures and descriptions of collection items,
and facts about historically significant dates.

For example, Smithsonian Folkways Recordings, and museums such as the National
Museum of the American Indian, post events on their Facebook pages where users can
RSVP and share the events with their Facebook friends.

In other examples, the National Zoological Park’s YouTube channel posted a video of
animal care staff hand-rearing clouded leopard cubs born this spring at the Smithsonian
Conservation Biology Institute. In the video, the animal care staff describe their work
with the cubs and the importance of the clouded leopard breeding program. And, the
National Air and Space Museum relived the Apollo 11 mission to the moon by tweeting
highlights from that mission in real time on the mission’s 40th anniversary.
National Zoological Park’s YouTube Channel video featuring clouded leopard cubs




The Smithsonian Strategic Plan and Social Media

In addition to reaching audiences through traditional means such as exhibits, the
Smithsonian’s Strategic Plan calls for the Institution to use social media and other new
media tools to broaden access to Smithsonian resources, one of seven strategic priorities.
Third-party social media are just one aspect of social media, as social media also
encompass interactive tools embedded in Smithsonian websites. Furthermore, social
media are just one small part of the much larger Web and new media field, which also
includes tools such as mobile technology and video games.

The Strategic Plan also communicates the Institution’s aim to involve its audiences as
partners in the increase and diffusion of knowledge. Specifically, the Smithsonian seeks to
“use new media and social networking tools to deliver information in customized ways

                                                      4
and bring [its] resources to those who cannot visit in person.” This vision stems from the
Institution’s Web and New Media Strategy, finalized on July 30, 2009, which sets forth the
Smithsonian’s strategic Web and new media goals, as well as tactical recommendations to
implement these goals.

Importance of Social Media

Organizations can no longer view social media as discretionary. The explosive
proliferation of social media across the globe means that users now demand that
organizations employ social media. Social media are essential for the Institution to remain
relevant, as they enable audiences around the world to receive information on the social
media sites they already use and in the personalized and participatory manner they
expect. People of all ages now actively use social media. In July 2011, for example,
Facebook had 750 million active users. Without effectively using social media tools,
organizations risk losing their audiences, who may gravitate towards organizations that
do reach out and engage with them in these spaces.

As an example of the trend           National Museum of American History’s YouTube Channel
toward two-way dialogue,
during a controversy
regarding the Hide/Seek
exhibit at the National
Portrait Gallery,6 audiences
used Facebook to express
their opinions to
Smithsonian management
and to debate with one
another.

In another example,
audiences rated and
commented on their
favorite singers in a
national anthem singing
contest on YouTube, as
part of the National
Museum of American
History’s efforts to promote
its new Star Spangled
Banner exhibit.

Social media also offer new opportunities to involve audiences in conducting the
Institution’s work more efficiently. As limited resources continue to be a challenge for the
Smithsonian, social media provide innovative ways to “crowdsource”7 knowledge to help


6
  On November 30, 2010, the National Portrait Gallery removed a four-minute video that was part of its
exhibit Hide/Seek: Difference and Desire in American Portraiture, in response to complaints that the video
was offensive to some.
7
  According to Wikipedia, crowdsourcing is defined as the act of taking tasks traditionally performed by an
employee or contractor, and outsourcing them to an undefined, large group of people or community (a
crowd), through an "open call.”

                                                     5
achieve mission-based projects. For example, the Smithsonian has used Flickr, a photo-
sharing social media site, to solicit additional information about photos in its collection.

Social Media Roles and Responsibilities

As with many of its other functions, the Institution manages its social media use in a
decentralized manner. See Figure 2 for an organizational chart illustrating groups that
have key social media responsibilities.

Social media practitioners throughout the Institution – who reside in various unit
departments ranging from communications, to public programs, to Web and new media
– operate the accounts and report to their unit directors, who in turn report to their
respective Under Secretaries.

The Smithsonian does not have a single leader with Institution-wide responsibility for
social media, or Web and new media as a whole. Instead, the Smithsonian divided key
responsibilities for social media among central Smithsonian groups as follows:

        The Office of Communications and External Affairs (OC&EA) has operated the
         several main “Smithsonian”-branded social media accounts.8 OC&EA is also
         responsible for setting pan-Institutional social media policy, and has developed
         the policy in coordination with staff from the Office of General Counsel,
         Smithsonian Institution Archives (SIA), the Office of Contracting and Personal
         Property Management, and the Office of Chief Information Officer (OCIO).
        SIA has been responsible for maintaining the Institution’s Website and Social
         Network Registry and for archiving relevant social media records.
        OCIO has been responsible for technology solutions, but those responsibilities do
         not extend to third-party sites, such as social media sites. OCIO has two mid-level
         managers who assist with coordinating pan-Institutional new media strategy.

At the time we drafted this             Figure 2. Organizational chart of groups with key social media
report, Management was in                responsibilities
the process of reassigning                                            Secretary
roles and responsibilities
related to Web and new
media, including social                        Assistant                Under                   Office of
                                             Secretary for            Secretaries           Communications
media. While OCIO and                       Education and                                     and External
OC&EA both have played a                        Access                                           Affairs
key role in the past, the
extent of their future
                                                                    Deputy Under
responsibilities is under                                            Secretary for
                                                Units                                            OCIO
discussion. Other central                                           Collections and
units, such as SIA, will likely                                    Interdisciplinary
                                                                       Support
continue to play a role; new
offices, such as that of the
newly established Assistant                                              SIA


8
 Examples of main “Smithsonian”-branded social media accounts include the Smithsonian Institution
Facebook page, the Smithsonian Twitter account, and the Smithsonian Videos YouTube channel.
Separately, unit practitioners operate social media accounts specific to their unit activities, such as those we
describe in the background section of this report.

                                                        6
Secretary for Education and Access, will take on a greater leadership role.

Before disbanding in February 2011, the Web and New Media Steering Committee, a
pan-Institutional group of Smithsonian management and staff, began a process to
redefine its role and membership. As part of this process, the committee hired an
independent consultant who is helping to draft a charter for a replacement pan-
Institutional Web and new media group.

Accountability and Performance Measurement

According to the Strategic Plan, the Institution seeks to build a culture that emphasizes
organizational accountability as part of its strategic priority of “enabling the Institution’s
mission through organizational excellence.” Recognizing that performance measurement
and accountability go hand-in-hand, the Smithsonian also established performance
measurement as another one of its seven strategic priorities:

       Performance measurement of individuals, teams, units, and activities tells us
       whether we are achieving our objectives, goals, and outcomes…. Performance
       measurement is critical to sustaining the highest standards of excellence.

The Strategic Plan also emphasizes the importance of measuring performance so that the
Smithsonian can communicate the performance of the entire Institution, not just select
units: the Smithsonian strives to “improve the capability of the Smithsonian to explain
and market its accomplishments, relevance, and wealth of offerings to the Congress,
Administration, donors, sponsors, and the public.”


RESULTS OF AUDIT
The Smithsonian Generally Used Social Media Responsibly
We found that the Institution’s social media practitioners responsibly managed
Smithsonian and user content on the Institution’s social media accounts. The
Smithsonian content we reviewed on Facebook and Twitter advanced the Institution’s
mission to increase and diffuse knowledge. Practitioners we interviewed regularly
reviewed their social media accounts for inappropriate user content and did not find
many instances of such content. We also found no user content that we believed was
inappropriate in our review of a random sample of Smithsonian Facebook pages.

Management’s just-issued social media policy, if followed as written, will reinforce the
practitioners’ responsible use of all social media. The policy, which incorporates social
media best practices, sets expectations for how to use social media responsibly. Before the
policy came out in August 2011, practitioners may not have been aware of and may not
have followed social media best practices, as demonstrated by our finding that most
Smithsonian Facebook pages we reviewed in another sample did not include a comment
policy – a social media best practice.

Smithsonian Practitioners Posted Content that Advanced the Institution’s Mission

Smithsonian practitioners posted content that was related to the Institution’s mission, as
recommended by best practices. We found that the content in our sample of 703

                                              7
 Facebook and 878 Twitter postings advanced the Smithsonian’s mission to increase and
 diffuse knowledge.9
                                                  A Tweet from the National Museum of Natural History’s Human
 For example, the National Museum                 Origins Program Twitter Account
 of Natural History’s Human Origins
 program encouraged Twitter
 audiences to vote on which fossil
 from the museum’s exhibit to add to
 its online 3D collection.

The National Postal Museum invited its Facebook audience to vote
on a stamp for the museum’s new gallery
                                                                   Similarly, the National Postal
                                                                   Museum used Facebook to invite
                                                                   the public to vote on the stamp that
                                                                   would represent the United States
                                                                   in the museum’s new gallery.




 Smithsonian Practitioners Reviewed Social Media for Inappropriate User Content, but
 Did Not Set Forth Expectations for User Content

 Although practitioners we interviewed regularly reviewed their social media accounts for
 inappropriate user content, most Smithsonian Facebook pages we reviewed did not set
 forth expectations for appropriate user content by posting a comment policy; 25 (or 83
 percent) of the 30 pages in our sample did not contain a comment policy.

 Unit practitioners we interviewed regularly reviewed their social media accounts for
 inappropriate user content, and did not find many instances of such content. See Figure 3
 on the following page for an example of user content. Some of the practitioners we
 interviewed were concerned when they established their accounts that users would post a
 large amount of inappropriate content; however, they rarely found such content, and
 when they did, they moderated the content by warning the user or deleting it. We found
 no user content that we believed was inappropriate in our random sample of 14 of the
 Smithsonian’s 80 registered Facebook pages.




 9
  We did find one instance of a posting unrelated to the Institution’s mission, in which a practitioner
 promoted a new feature on a social media site that offered a chance to win a tablet computer.

                                                        8
 Figure 3. Example of user content (on right) in response to Smithsonian content posted by practitioners on
  Facebook




Social media best practices recommend that organizations set forth expectations for
appropriate user content by posting a comment policy. Best practices also recommend
that after users post content, practitioners review the content and moderate it according
to the posted comment policy.

Without a posted comment policy, how the Smithsonian moderates comments is not
transparent, and users do not know what is expected of them. As a result, users may view
the Smithsonian’s moderation as unfair. For example, if the Smithsonian were to delete
user content during a passionate debate without advising users ahead of time of the
standards used to gauge appropriate language and content, the users could view the
Smithsonian as censoring their comments.

Most Smithsonian Facebook pages did not include a comment policy because the
Smithsonian did not have a policy requiring practitioners to do so. The recently issued SD
814 requires the use of a comment policy on Smithsonian social media accounts, as
                                      10
appropriate to the social media site.

New Smithsonian Policy will Reinforce Responsible Use of Social Media

At the time we drafted this report, after we had concluded our fieldwork, the Smithsonian
was finalizing Smithsonian Directive (SD) 814: Social Media Policy to reinforce responsible
use of social media. This directive is based on draft guidelines established in July 2009 by a
small group of stakeholders who, amid the ever-growing presence of social media at the
Smithsonian,11 realized the need for Institution-wide guidance on how practitioners
should use social media responsibly. The draft of SD 814 established guidance, such as
types of acceptable practitioner and user content, as well as procedures for establishing
social media accounts. The Smithsonian shared an earlier version of this guidance with
the social media practitioner community.

10
    Posting a comment policy should be required only as appropriate to each social media site, as not all sites
(e.g., Twitter) are designed to allow a user to post content on others’ accounts or provide space to post a
comment policy.
11
   Social media use at the Smithsonian began to proliferate after the Smithsonian 2.0: A Gathering to Re-
Imagine the Smithsonian in the Digital Age conference hosted by the Secretary in January 2009.

                                                         9
Because Smithsonian staff were drafting the policy during our audit, we shared with them
the social media best practices we identified to incorporate at their discretion. We noted
that the most recent draft policy incorporated best practices previously identified by staff
as well as appropriate best practices we identified. The newly issued final policy addresses
relevant legal issues, such as privacy and records retention, as best practice suggests such
policies include.

Social media best practices recommend that organizations have a social media policy to
set expectations for how to use social media responsibly. Lacking an implemented policy,
practitioners may not have been aware of and may not have followed social media best
practices. For example, as we note in this report, prior to the policy’s implementation and
contrary to best practices, most Smithsonian pages we reviewed did not contain a
comment policy, and the Smithsonian’s central directory of social media accounts was
missing at least 10 percent of the Institution’s accounts.

The Director of Communications and External Affairs issued SD 814 as we were finalizing
this report, and therefore we do not make a recommendation regarding the issuance of
the policy.

Management Oversight of and Accountability for Social Media Limited
Management has not exercised adequate oversight of the Institution’s efforts to broaden
access using social media, limiting accountability. Specifically, the Under Secretaries have
not yet established a system to measure Institution-wide social media performance. The
Smithsonian’s incomplete listing of social media accounts further limited Institutional
accountability. Finally, the Secretary has not appointed a Web and new media leader, as
called for by the Institution’s Web and New Media Strategy, to help oversee the
Institution’s plans for and strategic use of social media.

The Under Secretaries Have Not Systematically Measured Institution-wide Social
Media Performance

The Under Secretaries have not adequately overseen unit social media efforts by
systematically measuring Smithsonian-wide progress in using social media to broaden
access. The Smithsonian’s Strategic Plan calls for Management to do so by selecting a
performance indicator, setting a performance target, gathering data, monitoring progress,
and evaluating and reporting results. See Figure 4 on the following page for elements that
make up a performance measurement system.

Given the Smithsonian’s decentralized organizational structure and the autonomy
afforded its units, systematically measuring pan-Institutional performance entails having
performance measurement systems established within each unit. Yet, the Under
Secretaries have not yet required unit directors to establish adequate systems to measure
their unit’s social media performance, which may give unit directors the impression that
having such systems is not necessary. Two unit directors we interviewed explained that
they were struggling with how to measure social media performance and that they did not
set targets or methodically evaluate performance.




                                             10
Instead, lacking a systematic approach, both the Under                     Figure 4. Elements of a
Secretaries and the unit directors we interviewed relied only               Performance Measurement
                                                                            System
on examples to demonstrate that the unit had broadened
                                                                                   Set strategic
access using social media. One unit director gave us an                                goal
example of his museum using its social media audience to                           (Broadening
quickly translate a foreign language item from its archives.                     access using social
                                                                                      media)

While we acknowledge that anecdotes are helpful in                                    Select
illustrating how social media can broaden access, anecdotes                       performance
do not provide a complete picture of unit performance.                              indicator
Anecdotes may only capture successful case studies, whereas
systematically measuring performance would capture both                          Set performance
                                                                                      target
successes and areas that may require additional support.

Management has recognized the need to systematically
                                                                                   Gather data
measure social media performance. As part of the
Smithsonian’s ongoing process to measure performance in
all strategic areas across the Institution,12 Management
identified pan-Institutional social media performance                           Monitor progress
indicators, namely the number of followers and monthly
views of Smithsonian social media accounts.13 Management
plans to begin using these indicators by the start of FY 2012,                    Evaluate and
                                                                                  report results
but has not yet determined when it will establish
performance targets.
                                                                                    Everyone
We recognize that the Smithsonian is placing more                                  accountable
                                                                                  for achieving
emphasis on performance measurement than it has in the                                 goal
past. However, we note that two years after issuing the
Strategic Plan, Management still does not have a systematic                Diagram created by OIG based
method of measuring social media performance Institution-                  on Strategic Plan
wide and has not decided when it will establish performance
targets.

Failing to systematically evaluate performance is also counter to the management
practices described in the Smithsonian’s Strategic Plan and its Web and New Media
Strategy. Both documents outline the Institution’s aim to measure Smithsonian
performance systematically. Specifically, the Strategic Plan states:

        We will engage all levels of leadership in matching outcomes, goals, objectives, and
        strategies to performance indicators that will specifically and annually measure
        progress toward our goals.

        A system for measuring performance on a more detailed level includes gathering
        data, monitoring progress, and evaluating results, as captured in a set of

12
   Since January 2010, Management has been redesigning its processes, including goal setting and
performance measurement, to help the Institution achieve its Strategic Plan goals.
13
   Management intends to track the number of social media followers by compiling the number of fans and
followers from official Smithsonian Facebook and Twitter accounts, respectively. Management defined
social media monthly views as the number of times YouTube visitors have viewed videos posted by
Smithsonian units, combined with the total number of times Flickr visitors have viewed individual photos
and photo sets posted by Smithsonian units on official Smithsonian Flickr photo-sharing sites.

                                                   11
        performance indicators directly linked to what the Smithsonian wants to
        accomplish.

According to the Web and New Media Strategy, the Smithsonian seeks to “create a culture
of accountability” and “require regular reports on Web and new media initiatives,
including target audiences, measurable performance goals, technologies used, resources
expended, and lessons learned.”

The Smithsonian has not yet established social media performance measurement systems
because the Under Secretaries believed that the Smithsonian had not identified a
meaningful performance indicator that could be tracked pan-Institutionally, as the field
of social media measurement is still new. The Under Secretaries believed that
practitioners should be allowed to experiment without being required to systematically
measure their performance. We acknowledge that this field is nascent and that best
practices recommend that organizations encourage their staff to experiment with social
media. However, we note that leading information technology research and advisory
companies14 recommend against organizations experimenting with social media without
measuring performance. One of these companies recommends that organizations begin
measuring their social media performance by starting with simple performance indicators
before moving on to complex ones, and look to leading organizations for best practices
on measuring social media performance.

We are concerned that without a performance measurement system, the Smithsonian will
not be accountable for reaching audiences using social media as audiences demand. No
one could know whether the Smithsonian was making progress toward achieving its
strategic goal of using social media to broaden access. As a result, (1) accountability for
broadening access using social media was limited at all levels of the Institution, and (2)
Management’s reports to the Board of Regents did not accurately reflect Institution-wide
performance.

Inadequate Accountability

Without a system for measuring pan-Institutional social media performance, there was a
dearth of accountability for broadening access using social media at all levels: the Under
Secretaries, unit directors, and potentially unit practitioners. Lacking performance targets
and results, the Secretary could not hold the Under Secretaries accountable for ensuring
the Institution as a whole achieves its strategic goal. Likewise, the Under Secretaries could
not hold unit directors accountable for systematically demonstrating how their unit used
social media to broaden access. Finally, unit directors who have not established systems to
measure their unit social media performance may not hold their staff accountable for
their role in broadening access.

If unit directors do not hold staff accountable for achieving social media performance
targets, unit directors are essentially allowing staff – rather than unit directors – to
determine the priority of social media relative to their other responsibilities. On the one
hand, staff could work on social media to the detriment of other responsibilities; on the
other hand, staff may not devote sufficient time to social media efforts. As an example of
the latter, subject matter experts, such as researchers and curators, may not collaborate
with practitioners to develop social media content. Because subject matter experts may be
14
  Gartner, Inc. and Forrester Research, Inc. are leading information technology research and advisory
companies.

                                                    12
responsible for meeting performance targets specific to their area, such as completing a
specified number of research publications, these staff may not be motivated to spend time
collaborating outside of these areas. Likewise, practitioners often juggle many
responsibilities and may not be motivated to dedicate time to social media without being
held accountable for achieving a target. The Smithsonian therefore risks losing relevance
with its audiences, as more people expect to be reached in an interactive manner using
their preferred online tools.

Management’s Reports on Social Media did not Reflect Institution-wide Performance

Lacking a system to provide unit performance results, Management could not know and
could not accurately demonstrate to the Board of Regents or other stakeholders how the
Institution’s overall social media efforts broadened access. This inability to demonstrate
pan-Institutional social media performance was evident in Management’s FY 2010
written reports to the Board of Regents.15

In the first quarter update on the    FY 2010 Smithsonian Goal to Broaden Access Using
Smithsonian’s progress in             Social Media
achieving the Smithsonian-wide
FY 2010 goal of broadening            Attract new and diverse onsite and virtual visitors by
access using social media,            … expanding social networking activities.
Management reported on only
three main Smithsonian accounts Source: Smithsonian Institution FY 2010 Annual Goals
centrally operated by OC&EA,
out of the nearly 200 other social media accounts managed by Smithsonian units at the
time.16 Management reported that the Facebook page, which hosted live question and
answer sessions with Smithsonian experts, reached 37,000 fans; Twitter followers
increased to 16,800; and the YouTube page was redesigned.

Management also did not first establish performance indicators and corresponding
performance targets. For example, Management reported the following results in the first
quarter of FY 2010:

        Twitter followers increased to 16,800; with 43% of our followers male and 57%
        female.

Without a pre-established target, Management may report any performance as evidence
of success; for example, Management could interpret adding any number of followers –
from one to one million – as success. Indeed, Management has used such results as
evidence that the Institution was “on track” to achieve its FY2010 goal.

Management’s reports to the Board of Regents thus did not reflect Institution-wide
performance. We are concerned that reporting in this manner may give the Board an
incorrect impression of the Institution’s overall social media use, implying that all units

15
   Management periodically reports its progress towards achieving the Smithsonian strategic goals to the
Board of Regents. For example, in FY 2010, Management provided two written reports to update the Board
of Regents on the Smithsonian's progress toward the pan-Institutional FY 2010 goals.
16
   Management reported on the following accounts: 1) Facebook
(www.facebook.com/SmithsonianInstitution), 2) Twitter (www.twitter.com/smithsonian), and 3) YouTube
(www.youtube.com/SmithsonianVideos).


                                                  13
are successfully using social media to broaden access when they may not be. Alternatively,
the Institution may not be giving itself credit for the full range of its social media
accomplishments. The reported results are not meaningful, and may even be misleading,
without specified performance indicators or targets to provide context.

Management is currently reevaluating its goals as it redesigns how it will measure progress
toward achieving the Strategic Plan. As part of these efforts, after the start of FY 2011
Management overhauled all of its annual goals from FY 2010, and no longer has a goal
specific to social media.

Our audit only covered the social media element of the Strategic Plan. As such, we do not
comment on other broader aspects of the plan. However, our work underscores the
importance of overseeing the units to ensure that they have performance measurement
systems in place for all key strategic areas and, further, that the Under Secretaries rely on
the overall plan to prioritize their activities.

Recommendation

To ensure sufficient oversight of and accountability for the Institution’s overall social
media use, we recommend that the Secretary:

   1. Develop a performance measurement system that includes performance targets,
      set centrally or by the units, to evaluate whether the Institution as a whole has met
      its goal of broadening access using social media.


Web and New Media Leader Needed to Plan for and Use Social Media Strategically

The Secretary has not appointed a Web and new media leader – as called for in the Web
and New Media Strategy – with the authority and visibility to help oversee the
Institution’s plans for and strategic use of social media. The Director of Communications
and External Affairs and the Chief Information Officer had been co-leading Web and new
media at the Institution, with one responsible for new media content, the other for
technology. However, a divided management approach may not be effective. The areas of
content and technology overlap in much of new media, including social media, and co-
leaders may have different management approaches or priorities, thus frustrating
decision-making.

Both co-leaders believed that sharing leadership may not be as effective as having a single
leader. Several Smithsonian unit management and staff we interviewed expressed similar
views.

Additionally, the Director of Communications and External Affairs believed that the
Smithsonian would benefit from having a dedicated leader deeply knowledgeable about
this ever-evolving field. A leader knowledgeable about current new media practices would
enable the Institution to spend and invest resources strategically in this area, and help
other senior leaders understand the costs, benefits, impact, and potential of new media.
Furthermore, because Web and new media affect all disciplines, a leader would help
integrate long-term new media thinking into projects and activities across the Institution.
A leader could also provide clear and steadfast direction at all levels of the organization, as
called for in the Strategic Plan.

                                              14
Recommendation

To ensure sufficient oversight and accountability for the Institution’s overall social media
use, we recommend that the Secretary:

     2. Appoint a pan-Institutional Web and new media leader, and give that person the
        authority and visibility to lead change, as called for in the Smithsonian’s Web and
        New Media Strategy.


The Smithsonian did not know the Full Extent of its Social Media Presence, Limiting
Institutional Accountability

While the Smithsonian maintained a centralized directory, or registry, of the Institution’s
social media accounts as recommended by best practices, no one at the Smithsonian knew
the full extent of the Institution's social media presence because this directory was
incomplete. The Smithsonian was aware that the registry, which included 342 social
media accounts, was incomplete.

We found 3417 social media                          Figure 5. Number of Social Media Accounts
accounts (or an additional                                        (376 Total)
10 percent) missing from                                 34
the registry. Furthermore, of                                    66               # of accounts on registry
the 342 accounts included                                                         missing contact name
on the registry, 66 (or 19                                                        # of accounts on registry
percent) did not include                                                          with contact name
contact names – a key field                               276
                                                                                  # of accounts missing
on the registry, which aids                                                       from registry
accountability. See Figure 5
for a summary of results.

Accordingly, we cannot be sure of the full extent of the Institution’s social media presence
because we may not have identified all missing accounts.

As with the lack of comment policies, the Smithsonian’s Website and Social Network
Registry was incomplete primarily because the Institution had not yet issued or
implemented SD 814, which requires social media practitioners to notify SIA of new
social media accounts. Furthermore, social media practitioners may not have been aware
of the registry because central Smithsonian offices did not establish a process for
reporting accounts to the registry until after practitioners were actively using these tools.
Finally, although SIA emails quarterly reminders to update the registry to various
Smithsonian listservs,18 these reminders may not reach all social media practitioners
across the Institution because participation in these listservs is voluntary. This method of
communication may also be ineffective because practitioners may not be inclined to
follow instructions from outside of their unit.

17
   We identified these accounts by searching the Internet for social media accounts that appeared to be
official Smithsonian accounts managed by staff and not listed on the registry. This number may not reflect
the entire population of unlisted accounts, as we limited our search to accounts that contained the
Smithsonian name or names of the individual museums.
18
   A listserv, an automatic mailing list software application, allows emails addressed to the listserv to be
broadcast to everyone on the mailing list.

                                                     15
An incomplete registry affects the Smithsonian in three ways.

First, it limits organizational accountability for the Institution’s social media efforts
because no one at the Smithsonian knows the total number of social media accounts
operated by Smithsonian practitioners. An incomplete registry increases the likelihood
that missing accounts would not be captured in an Institution-wide performance
measurement system, hampering Management’s ability to determine whether the
Institution as a whole broadened access using social media.

Second, accounts missing from the registry are more likely to be inactive than those
included in the registry. For example, whereas only 1 of 60 accounts we reviewed from the
registry was inactive, 8 (or 24 percent) of the 34 missing accounts we found were
inactive.19 Inactive accounts may reflect poorly on the Institution and may give the
impression that the Smithsonian lacks commitment to its social media efforts and to
public outreach in general. Such accounts also pose the risk that inappropriate content
may not be properly moderated.

Third, the Smithsonian cannot promote social media accounts, as best practices
recommend, if it does not know about them. For example, social media accounts missing
from the registry would not likely be linked from the main Smithsonian website.

Furthermore, those accounts that were on the registry but lacked contact names limit
communication with the units, which poses risks. First, accountability is limited without a
contact who could point management to the individuals responsible for the account.
Second, training and information-sharing abilities are limited. Management would not
know whom to train if they decided to offer training when it implements the social media
policy, and practitioners may have more difficulty identifying fellow practitioners.

Recommendations

Our initial draft report included a recommendation for the Director of SIA to reach all
Smithsonian social media practitioners to announce the requirement to report all
Smithsonian-managed social media account information. The Director of SIA has since
issued a Smithsonian-wide email to announce this requirement. Accordingly, we removed
this recommendation.

We also recognize that the Director of SIA has started addressing other recommendations
we made in our initial draft report. SIA began updating the registry with the missing
accounts we identified; requesting units to provide complete account information,
including contact names; and contacting units to close the inactive accounts we identified.

To further strengthen accountability for all of the Institution’s social media efforts, we
recommend that the Director of SIA finish its efforts to:

     3. Update the registry with the missing accounts we identified.


19
  We defined inactive accounts as accounts that did not include any practitioner updates for the past six
months or longer at the time of our testing. This number does not include six additional accounts that did
not have updates in the past six months at the time of testing because they either directed users to another
active account or had never been used (indicating that Smithsonian units may be saving the account name).

                                                    16
   4. Request units to close inactive accounts we identified, as necessary, following
      procedures set forth in SD 814.


The Smithsonian Should Improve Information-Sharing about Social Media
Although social media practitioners we surveyed were generally satisfied with the
Smithsonian’s current methods for sharing information about social media, the
practitioners believed that these methods could be improved. Seventy-two percent of
those surveyed reported that they would find it useful if the Smithsonian had a hub for
information sharing – both in-person and using a central repository – dedicated to social
media. Social media practitioners currently share information in various ways, including
through Smithsonian listservs, monthly pan-Institutional department meetings, and the
Web and new media strategy SharePoint site. According to the practitioners we surveyed,
however, these forums do not reach all social media practitioners and do not focus solely
on social media.

Pan-Institutional department meetings that discuss social media do not reach all social
media practitioners. For example, Webmasters meetings (the primary in-person forum
for sharing social media information) are dedicated to Webmasters, not to social media
practitioners working in the other fields such as communications, research and
collections, and public programs. Likewise, staff from other fields, such as
communications, may hold their own meetings that discuss social media.

Information shared on the Web and new media strategy SharePoint site, through the
listserv, or discussed during the Webmasters meetings, does not focus on social media.
Social media practitioners may not participate in these forums because they are
overwhelmed by the amount of information related to other Web and new media topics.

We believe that improved information-sharing could enhance social media productivity
by allowing practitioners to more efficiently share best practices and lessons learned.
Indeed, the Smithsonian’s Strategic Plan sets forth the Institution’s intentions to
encourage a culture that routinely identifies innovative strategies to solve problems and
shares lessons learned across the Institution. Furthermore, if staff that attend the various
pan-Institutional department meetings, such as for Webmasters and communications, do
not coordinate their discussions, social media practitioners may duplicate each other’s
efforts by researching and discussing the same social media topics.

In August 2011, OC&EA established an information-sharing forum dedicated to social
media on the Smithsonian’s internal Web and new media strategy SharePoint site.
Accordingly, we make no recommendation regarding this finding. We encourage the
Smithsonian and its social media practitioners to continue to improve their methods for
sharing social media information, and we will revisit this matter in a future audit.


MANAGEMENT RESPONSE
In their September 22, 2011 response to our draft audit report, Management generally
concurred with our audit recommendations.



                                             17
Below, we summarize their comments to our recommendations and then offer our
responses to their comments.

Recommendation 1. Concur. As part of developing performance targets, Management
plans to begin tracking select social media metrics in FY 2012. Management also noted
they will continue to stay informed about new tools for measuring social media amid the
challenges of creating useful and accurate measurements.

Recommendation 2. Concur. However, Management believes that the current
decentralized environment is working well, and the decision to establish a new senior
position must be considered in the context of overall staffing needs and fiscal constraints.

Recommendation 3. Concur. SIA will update the registry with the missing accounts we
identified by December 15, 2011.

Recommendation 4. Concur. By December 15, 2011, SIA will request that units comply
with SD 814, including the requirement to close inactive accounts, as appropriate.

We include the full text of management’s response in Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

We are pleased that management generally concurs with our audit recommendations. We
offer the following comments on Management’s responses to Recommendations 1 and 2.

Recommendation 1. While we acknowledge Management’s efforts to begin tracking select
social media metrics and to be attentive to new ideas for measuring performance, our
recommendation called for a comprehensive performance measurement system that
includes setting performance targets and evaluating performance against these targets.
Because the response did not provide a target date for this recommendation, we will
continue to work with Management to establish a completion date for implementing
actions consistent with the initial recommendation.

Recommendation 2. We appreciate management’s view that both the emerging use of
social media in a decentralized manner and the budget uncertainties facing the
Smithsonian bear on the decision to appoint a Web and new media leader. Nonetheless,
we wish to reaffirm our recommendation for a Web and new media leader as called for in
the Web and New Media Strategy and as supported by unit management and staff.
Management responded that “establishing a new senior position is a management
decision that must be considered in the context of overall staffing needs and fiscal
constraints.” We request their decision by September 30, 2012.

Management’s planned actions are responsive to Recommendations 3 and 4.

We appreciate the courtesy and cooperation of Smithsonian management and staff
during the course of this audit.




                                             18
APPENDIX A. SCOPE AND METHODOLOGY
Our objectives were to assess whether the Institution’s plans for and current uses of social
media productively and responsibly advance the Smithsonian mission, including whether
the Institution provides sufficient oversight and adequate accountability.

To accomplish our objectives, we interviewed the Smithsonian’s Under Secretaries and
Assistant Secretary for Education and Access, as well as management and staff from the
following central offices: Office of Communications and External Affairs, Office of the
Chief Information Officer, Office of General Counsel, and Smithsonian Institution
Archives. We also interviewed management leading the Institution’s efforts to redesign
the goal-setting and metrics processes. Because units throughout the Institution use social
media, we also interviewed management and staff from five judgmentally selected
Smithsonian units: Smithsonian Enterprises, National Museum of American History,
National Air and Space Museum, National Postal Museum, and the Asian Pacific
American Program. We also interviewed unit directors from two of these units.

We conducted a web-based survey of social media practitioners to understand how units
across the Smithsonian use social media and share information about these tools. We
received 47 responses to the survey. Because the Institution does not maintain a list of
social media practitioners across the units, we could not determine the total number of
social media practitioners Institution-wide.

We reviewed the Smithsonian’s draft social media policies and guidelines, Smithsonian
Board of Regents meeting minutes, annual organizational goals, and other documents
about performance measurement relevant to social media. We also reviewed the
Smithsonian’s various strategic plans: FY 2010 – 2015 Smithsonian Strategic Plan, Web
and New Media Strategy, and draft Mobile Strategy.

Because the Institution was still developing Smithsonian Directive (SD) 814, Social Media
Use, we identified social media best practices by searching the Internet for social media
policies, guidelines, and publications from other organizations such as museums, other
non-profit institutions, and the federal government. During the course of our audit, we
shared these best practices with staff drafting the policy. We then reviewed the draft
directive to determine whether it incorporated social media best practices, as appropriate,
and whether the policy addressed relevant legal issues, such as records management and
privacy requirements.

To address the risk of users posting inappropriate content on Smithsonian sites and to
determine if the Smithsonian uses social media responsibly, we reviewed user and
employee postings on 14 Smithsonian Facebook pages randomly selected from the 80
registered accounts. The results of our sampling could not be projected across the
population so therefore we did not project our results. We did not extend our review to
other social media sites because we did not find inappropriate content to be as big of a
risk as we originally anticipated. We selected Facebook because it was the most commonly
used social media tool at the Institution and allows two-way interaction.

To test the completeness of the Smithsonian’s Website and Social Network Registry and
to determine whether the Smithsonian maintains adequate accountability over social
media, we searched the Internet for Smithsonian-operated social media accounts that


                                            A-1
APPENDIX A. SCOPE AND METHODOLOGY
were not listed on the registry but appeared to be operated by Smithsonian staff and that
included the Smithsonian or a museum name in the account name.

Finally, we tested a sample of Smithsonian and peer museum social media accounts based
on the best practices we identified, and shared the results with social media practitioners.
We used peer museums to establish social media performance benchmarks because the
Smithsonian had not identified performance targets. Our sample included Facebook and
Twitter accounts because these were the two most commonly used social media tools at
the Institution. We tested 30 (or 38 percent) of the Smithsonian’s 80 registered Facebook
accounts, and 30 (or 46 percent) of the Institution’s 65 registered Twitter accounts. We
tested both Facebook and Twitter accounts for 15 judgmentally-selected museums
representing a mixture of large, small, specialized, and local institutions. Because
individual results should be understood within the broader context of unit and account
purpose and goals, we provided the testing results directly to the unit social media
practitioners but did not include them in this report.

We conducted this performance audit in Washington, D.C. from November 2010
through July 2011, in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence we obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




                                            A-2
          APPENDIX B. MANAGEMENT'S RESPONSE
      ~   Smithsonian Institution

          G. Wayne Clough
          Secretary



          September 22, 2011

To:       A. Sprightley Ryan, Inspector General~

From:     G. Wayne Clough,     secretaryv6~
          Evelyn Lieberman, Director of Communicatio sand Externa
          Anne Van Camp, Director, Smithsonian Institution Archives
                                                                          ,~airs .J , /
                                                                            d.---V~
cc:       Claudine Brown, Assistant Secretary for Education and Access
          Richard Kurin, Under Secretary for History, Art, and Culture
          Judith E. Leonard, General Counsel
          Alison McNally, Under Secretary for Finance and Administration
          Eva J. Pell, Under Secretary for Science
          Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary Support
          George Van Dyke, Acting Chief Information Officer

          Subject: Response to Draft Report on the Audit of Use of Social Media, Number A-II-0l

          Thank you for the opportunity to review and respond to the draft report on the audit of the
          Smithsonian's use of social media. The following comments address the recommendations made
          in the Office ofInspector General (OIG) report.

          We are pleased to note that the OIG audit found several positive results:
              •     Social media practitioners responsibly managed the Facebook and Twitter accounts
              •     Facebook and Twitter content advanced the Smithsonian's mission to increase and diffuse
                    knowledge
              •     Practitioners regularly reviewed their social media accounts for inappropriate user content
              •     A random sample of 14 Facebook pages found no inappropriate content

          The OIG also acknowledges the Smithsonian recently implemented a new Social Media Policy (SD
          814), which includes best practices and addresses concerns expressed in the audit, such as the need
          for a comment policy.

          The OIG cites the importance of social media to the Smithsonian's efforts to reach new audiences
          in new ways and broaden access to all the Institution has to offer. We agree, and are encouraged by
          the ongoing efforts across the Smithsonian to use social media to connect with targeted audiences.

          Weare also pleased to note that three highly credible sources have cited the Smithsonian for using
          technology (including social media) in innovative ways to reach our audiences. The New York
          Times, First Lady Michelle Obama, and Mashable, a major social media blog, recently noted the
          Smithsonian's creativity in broadening access to Smithsonian collections, events, and expertise.

          Smithsonian Institution Building
          1000 Jefferson Drive sw
          Washington DC 20560·0016
          202.633.1846 Telephone
          202.786.2515   Fax                           B-1
Recommendation 1
Develop a performance measurement system that includes performance targets, set centrally or by the
units, to evaluate whether the Institution as a whole has met its goal of broadening access using social
media.

Response: We concur with this recommendation and note that work has begun on developing
performance targets. As the OIG report notes, we will begin measuring social media in 2012 with a
metric that tracks the numbers of Facebook fans and Twitter followers, and the number of views
on YouTube and Flickr. While we agree that measuring success is important, we also note that the
very nature of social media's multiple venues and multiple audiences, combined with the wide
variety of projects and goals throughout the Smithsonian, make it challenging to create useful and
accurate measurements. We will continue to stay informed about new and effective tools for
measuring social media and how they can be applied productively to the Smithsonian's social
media activities.

Recommendation 2
Appoint a pan-Institutional Web and new media leader, and give that person the authority and
visibility to lead change, as called for in the Smithsonian's Web and New Media Strategy.

Response: We concur with the idea behind the recommendation, although it is clear that Web and
new media initiatives have flourished in a decentralized environment. Establishing a new senior
position is a management decision that must be considered in the context of overall staffing needs
and fiscal constraints.

Recommendations 3 and 4
As indicated in the OIG draft report, Smithsonian Institution Archives (SIA) has already taken
steps necessary to further strengthen Institutional accountability for the Smithsonian's social
media efforts. With regard to the two recommendations in the OIG final draft report, SIA will
work to address those concerns as follows:

Recommendation 3
Update the registry with the missing accounts we [OIG ] identified.

Response: From the list of missing accounts supplied by the OIG, SIA will verify whether the
accounts have already been registered by the owning unit since the list was first received, and
analyze the remaining accounts for probable unit attribution. Where the analysis indicates the very
strong likelihood that the account is an Institutional account but an owning unit cannot be
identified, such accounts will be listed in the registry with a notation "unit not identified." Finally,
for accounts identified by the OIG that, as a result of the analysis, appear to be owned by parties
outside the Institution, SIA will exclude these accounts from the registry, providing written
documentation of the justification for each account treated in this manner.




                                                  B- 2
Recommendation 4
Request units to close inactive accounts we [GIG] identified, as necessary, following procedures set forth
in SD 814.
Response: SIA's quarterly and annual communications to the Smithsonian community and all
Smithsonian social media account points of contact now point to SD 814 and their obligation to
comply with the policies and procedures contained therein. SD 814 Appendix A, section E
identifies the requirements and how to meet them, including specifically the requirement to close
inactive accounts with certain exceptions. SIA will continue to document its requests to the units
that they comply with SD 814. Units that have legitimate reasons for maintaining social media
account(s) in an inactive status will document the justification for these retentions.

SIA proposes to complete this work by December 15, 2011. At that time, SIA will submit a request
to OIG that these recommendations be closed.

Again, we appreciate the opportunity to provide this response to the OIG draft report. We will
continue working with our colleagues around the Institution to advance the Smithsonian's mission
through social media.




                                                   B-3
APPENDIX C.

The following individuals from the Smithsonian Office of the Inspector General contributed to
this report:

Daniel Devlin, Assistant Inspector General for Audits
Brian Lowe, Supervisory Auditor
Michelle Uejio, Auditor
Mary Stevens, Auditor
Kayla Norwood, Financial Technician




                                            C-1
